ESL Visa® Secured Credit Card Information
(09/18)

Interest Rates and Interest Charges
Annual Percentage
Rate (APR) for
Purchases

16.25%

APR for
Balance Transfers

16.25%
This APR will vary with the market based on the Prime Rate1.

APR for
Cash Advances

16.25%
This APR will vary with the market based on the Prime Rate1.

Penalty APR and
When it Applies

18.0%
This APR may be applied to your account if:
1. Your minimum monthly payment is not made for two
consecutive billing cycles.

This APR will vary with the market based on the Prime Rate1.

How long will the Penalty APR apply?
If your APRs are increased for the reason above, the
Penalty APR will be applied until the billing cycle after your
past due status is corrected.
Paying Interest

Your due date is at least 25 days after the close of each
billing cycle. We will not charge you interest on purchases if
you pay your entire balance by the due date each month.
We will begin charging interest on cash advances and
balance transfers on the transaction date.

Minimum Interest
Charge

If you are charged interest, the charge will be no less than
$.50.

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer
Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
• International
Service Assessment

1% of transaction amount

Penalty Fees
• Late Payment
• Returned Payment
Other Fees

Up to $25.00
Up to $25.00
None

We add 11.0% to the Prime Rate to determine the Purchase, Balance Transfer and Cash
Advance Rates. As of 09/27/18, the Prime Rate was 5.25%. Your APR will not exceed the
maximum allowed by applicable law, which is currently 18.00%.
1

See reverse side for additional information.

How we will calculate your balance
We use a method called “average daily balance (including new purchases).”
See your account agreement for more details.
Billing Rights
Information on your rights to dispute transactions and how to exercise those rights
is provided in your account agreement.
Security Interest
We have or will acquire a security interest in the funds (equal to your credit limit)
that you deposited into the ESL Secured Credit Card Savings account, which you
opened at the same time as this ESL Visa Secured Credit Card account.

